<html>
<title> - BREACH OF TRUST: ADDRESSING MISCONDUCT AMONG TSA SCREENERS</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
       BREACH OF TRUST: ADDRESSING MISCONDUCT AMONG TSA SCREENERS 

=======================================================================

                                HEARING

                               before the

                SUBCOMMITTEE ON TRANSPORTATION SECURITY

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                             AUGUST 1, 2012

                               __________

                           Serial No. 112-112

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

                [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                     

      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               __________

                         U.S. GOVERNMENT PRINTING OFFICE 

80-853 PDF                       WASHINGTON : 2013 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 


                     COMMITTEE ON HOMELAND SECURITY

                   Peter T. King, New York, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Daniel E. Lungren, California        Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Michael T. McCaul, Texas             Henry Cuellar, Texas
Gus M. Bilirakis, Florida            Yvette D. Clarke, New York
Paul C. Broun, Georgia               Laura Richardson, California
Candice S. Miller, Michigan          Danny K. Davis, Illinois
Tim Walberg, Michigan                Brian Higgins, New York
Chip Cravaack, Minnesota             Cedric L. Richmond, Louisiana
Joe Walsh, Illinois                  Hansen Clarke, Michigan
Patrick Meehan, Pennsylvania         William R. Keating, Massachusetts
Ben Quayle, Arizona                  Kathleen C. Hochul, New York
Scott Rigell, Virginia               Janice Hahn, California
Billy Long, Missouri                 Ron Barber, Arizona
Jeff Duncan, South Carolina
Tom Marino, Pennsylvania
Blake Farenthold, Texas
Robert L. Turner, New York
            Michael J. Russell, Staff Director/Chief Counsel
               Kerry Ann Watkins, Senior Policy Director
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director
                                 ------                                

                SUBCOMMITTEE ON TRANSPORTATION SECURITY

                     Mike Rogers, Alabama, Chairman
Daniel E. Lungren, California        Sheila Jackson Lee, Texas
Tim Walberg, Michigan                Danny K. Davis, Illinois
Chip Cravaack, Minnesota             Cedric L. Richmond, Louisiana
Joe Walsh, Illinois, Vice Chair      Ron Barber, Arizona
Robert L. Turner, New York           Bennie G. Thompson, Mississippi 
Peter T. King, New York (Ex              (Ex Officio)
    Officio)
                     Amanda Parikh, Staff Director
                   Natalie Nixon, Deputy Chief Clerk
                 Vacant, Minority Subcommittee Director



                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Mike Rogers, a Representative in Congress From the 
  State of Alabama, and Chairman, Subcommittee on Transportation 
  Security.......................................................     1
The Honorable Danny K. Davis, a Representative in Congress From 
  the State of Illinois..........................................     2

                                Witness

Mr. John W. Halinski, Deputy Administrator, Transportation 
  Security Administration:
  Oral Statement.................................................     4
  Prepared Statement.............................................     5

                                Appendix

Questions From Ranking Member Bennie G. Thompson for John W. 
  Halinski.......................................................    23
Questions From Ranking Member Sheila Jackson Lee for John W. 
  Halinski.......................................................    23


       BREACH OF TRUST: ADDRESSING MISCONDUCT AMONG TSA SCREENERS

                              ----------                              


                       Wednesday, August 1, 2012

             U.S. House of Representatives,
           Subcommittee on Transportation Security,
                            Committee on Homeland Security,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:04 a.m., in 
Room 311, Cannon House Office Building, Hon. Mike Rogers 
[Chairman of the subcommittee] presiding.
    Present: Representatives Rogers, Lungren, Walberg, 
Cravaack, Turner, and Davis.
    Mr. Rogers. The Committee on Homeland Security Subcommittee 
on Transportation Security will come to order. The subcommittee 
is meeting today to examine TSA's efforts to address on-going 
misconduct within its screening workforce.
    I would like to welcome everybody here today, and 
especially TSA's new administrator, John Halinski, for 
testifying. Congratulations on your new appointment. I am sure 
you are going to do a great job. I share Administrator 
Pistole's confidence in your abilities.
    The need for the Federal Government to oversee and direct 
aviation security is undeniable. Terrorists have proven time 
and again their commitment to attacking our Nation's aviation 
systems. The Government has a duty to protect its citizens 
against these kinds of attacks.
    Having said that, the majority of Americans do not support 
the Government's current approach. When they hear that some 
people at TSA who are supposed to enforce and ensure their 
security are engaged in gross misconduct, it only makes matters 
worse.
    Stealing from checked luggage, accepting bribes from drug 
smugglers, sleeping or drinking while on duty, now this kind of 
criminal behavior and negligence has contributed significantly 
to TSA's shattered public image. It is true that other Federal 
departments struggle with criminal cases against their 
employees, but TSA, unlike most agencies, interacts with the 
general public in a very frequent and personal manner.
    The fact is that TSA's high-profile criminal cases have 
contributed to its major image problems and a growing lack of 
support. I believe TSA has an oversized workforce, which only 
increases the likelihood of this type behavior. I think the 
number of employees could be reduced dramatically with 
significantly more attention paid to qualifications and 
training.
    It is just a small percentage of the overall workforce that 
is involved in criminal or negligent behavior, but it only 
takes a few bad apples to spoil the bunch. At the end of the 
day, perception is reality. I did not convene this hearing to 
rehash all the details of the recent incidents of misconduct, 
nor is it my intention to vilify every TSA employee.
    Rather, this hearing is a chance for TSA to describe the 
efforts to more quickly identify and remove employees whose 
behavior or lack of judgment can further damage TSA's already 
troubled image. I believe the American taxpayer is owed this 
information. More importantly, I believe the frequency of TSA 
employee misconduct is a symptom of a larger problem we have 
examined here before.
    With the exception of SPP airports, TSA is responsible for 
both overseeing the screening and conducting the screening. In 
some cases, we have seen poor screener performance going 
uncorrected or, even worse, being encouraged or covered up by 
TSA management.
    One of the most disturbing examples occurred last year in 
Honolulu airport, where screeners and supervisors were letting 
luggage go through without screening for explosives. TSA's own 
Federal security was in on it. One of these cases is too many, 
but there have been other disturbing cases since then, 
including at airports in southwest Florida, Philadelphia, JFK, 
and Newark.
    Today, I look forward to receiving information from Mr. 
Halinski on his efforts to tackle these issues, and how 
Congress can assist you in those efforts. TSA has taken some 
action under Administrator Pistole's leadership to improve the 
integrity of TSA's workforce, including the creation of the new 
Office of Professional Responsibility.
    While I regularly support the administrator, adding 
bureaucracy on top of bureaucracy is not generally a good 
solution.
    With that, I now recognize the Ranking Member--or the sit-
in Ranking Member--of the subcommittee, Mr. Davis, for any 
opening statement he may have.
    Mr. Davis. Thank you very much, Mr. Chairman. Because the 
Ranking Member, Ms. Lee, could not be in attendance today I am 
sitting in, in her stead. So I will read her opening statement 
at this moment, and she may join us before the end of the 
hearing.
    I would first like to take this opportunity to thank Mr. 
Halinski for joining us today for the first time in his new 
role as deputy administrator at TSA. Mr. Chairman, as you know 
this Congress, we, have focused on the efforts by the Federal 
Government to empower and strengthen our front-line employees.
    Transportation security officers working at our airports 
across the country are our first line of defense against 
terrorism. Through our work on the oversight committee in the 
previous Congresses, the committee has found that these workers 
suffer from high injury rates, attrition, and exceptionally low 
morale.
    Until recently, there was no hope for them to obtain the 
necessary workplace protections, collective bargaining rights 
and whistle-blower protections, that other Federal employees 
enjoy. However, today we are closer to achieving this goal and, 
in turn, establishing a workforce that can place a greater 
focus on the security mission at hand.
    The lack of workplace protections for screening personnel, 
combined with poor workforce management, increases costs and 
decreases security. Collective bargaining rights will ensure 
that TSOs are regarded with the same standard and authority as 
other critical security personnel. We can have confidence that 
these rights will not interfere with proper steps being taken 
to address criminal activity and our failure in the training 
program.
    Mr. Chairman, as we explore today's hearing topic, I must 
caution you that we must make it clear as to what type of 
misconduct we are referring to. In one instance, we may be 
discussing alleged criminal activity that TSOs engage in and, 
therefore, must face legal consequences.
    On the other hand, we must take a closer look at instances 
when TSOs fail to comply with standard operating procedures at 
the checkpoint and what steps are taken by TSA to identify this 
activity and address vulnerabilities in the training and 
enforcement program. This hearing is an opportunity to question 
TSA about how it ensures that screening procedures are 
followed, and how it determines whether the remedy for 
misconduct should be discipline or remedial training for TSOs.
    Proper training of TSOs is critical to the security of our 
aviation system. That is why I, along with my Democratic 
colleagues of the committee, have consistently called for 
providing TSOs with additional training whenever egregious 
screening operations and missteps occur.
    I look forward to hearing more from TSA about how the most 
recent reorganization it has undertaken will address these 
concerns. In recent hearings, my colleagues on the other side 
of the aisle have stressed the importance of determining 
adequate staffing levels in order to create efficiencies that 
do not compromise security at our airports.
    In these tight budgetary times, it is incumbent upon all of 
us to find ways to be more efficient without compromising 
security. We cannot, however, cut corners when it comes to 
transportation security. I look forward to hearing from Mr. 
Halinski on TSA's staffing allocation model and its 
determination to adequately staff our security checkpoints.
    I would also expect to hear from him on the cost of 
outsourcing of screening operations. Finally, I hope Mr. 
Halinski can solve a mystery we have tried to unravel for over 
a year. That is, how will TSA's on-going headquarters 
reorganization reduce costs and create efficiencies?
    With that, Mr. Chairman, I thank you and yield back.
    Mr. Rogers. I thank the gentleman. Other Members of the 
committee are reminded that opening statements may be submitted 
for the record.
    We are pleased to have today with us a distinguished 
witness, Mr. John Halinski, the TSA deputy administrator. Mr. 
Halinski assumed his new position in July of this year. He 
previously served as the head of the office of global 
strategies, and Europe area manager before that.
    Before joining TSA, Mr. Halinski served 25 years in the 
Marine Corps in a variety of distinguished positions. We thank 
you for your service.
    The Chairman now recognizes Mr. Halinski for his opening 
statement.

     STATEMENT OF JOHN W. HALINSKI, DEPUTY ADMINISTRATOR, 
             TRANSPORTATION SECURITY ADMINISTRATION

    Mr. Halinski. Good morning, Chairman Rogers, Congressman 
Davis, and distinguished Members of the subcommittee. Thank you 
for the opportunity to testify today.
    Since TSA's inception, commercial aviation has been a 
priority target for al-Qaeda and its affiliates, as evidenced 
by repeated unsuccessful attempts to attack our aviation 
system. In recent years, TSA has mitigated threats related to a 
liquid explosives plot in 2006; the Christmas day underwear 
bombing attempt in 2009; the cargo explosive attempt in 2010; 
and concerns about surgically implanted explosives and renewed 
threat of explosives concealed on the body this year.
    The threat continues to evolve, which is why TSA uses 
intelligence as a key driver of all we do. Our transportation 
security officers, or TSOs, screen more than 1.8 million people 
per day. Our workforce is dedicated to the security of all 
passengers, and our leadership is committed to employing risk-
based, intelligence-driven operations to reduce the 
vulnerability of the Nation's transportation system to 
terrorism.
    Ten years after Federal screening operations began, our 
workforce is one of the most diverse in the Federal Government. 
The TSA workforce exceeds the civilian labor force 
participation rates for the three largest minority groups. 
Approximately one-quarter of our workforce, or 15,000 
personnel, are veterans of the United States armed forces, who 
bring to TSA the same dedication to serving their country that 
they did while in military uniform.
    Our workforce has considerable on-the-job experience, with 
the average TSO serving with us for nearly 6 years. We train 
and expect our workforce to carry out our critical security 
mission with professionalism and respect. Overall, most 
travelers have a positive experience at the airport. Of the 6 
million passengers screened each year, we are contacted by 
roughly 750,000 travelers.
    Of those contacts, less than 8 percent are from passengers 
registering a complaint. This fact belies the near-constant 
criticism and frequently-embellished allegations of improper 
screening reported in the media and repeated as fact by many 
individuals despite the evidence to the contrary. Since the 
creation of TSA, we have been focused on evolving the skill of 
our workforce to proactively mitigate potential threats.
    Through efficiencies created in our operations and the use 
of technology, we have invested in more specialized screening 
approaches, enhancing our layered security system as 
recommended by the 9/11 Commission. Also, since the inception 
of TSA we have used intelligence and our experience to make 
adjustments to the prohibited items list.
    These changes allow our workforce to focus on high-threat 
items. We base these decisions on a careful analysis of 
intelligence and our commitment to mitigating risk. In addition 
to Administrator Pistole's expectations of hard work, 
professionalism, and integrity from everyone who works at TSA 
he has also committed to provide the most effective security in 
the most efficient way.
    We are currently engaged in a transformation to better 
allocate resources and streamline agency functions. Our mission 
requires a workforce with specialized skills that can adapt as 
threats evolve. Maintaining and enhancing our employees' 
capability is a high priority. To be successful in our mission, 
we hold ourselves and our workforce accountable for meeting our 
expectations for hard work, professionalism, and integrity.
    Like any large agency, we will have employees that don't 
meet our expectations. It is a matter of loyalty to the tens of 
thousands of employees who take pride in carrying our out 
mission and do it well that we take prompt and appropriate 
action when we identify employees who do not meet our 
standards.
    Administrator Pistole, shortly after coming to TSA, 
established the Office of Professional Responsibility, or OPR, 
patterned after a similar function within the Department of 
Justice. The purpose of OPR is to ensure that allegations of 
misconduct are thoroughly investigated and that discipline is 
appropriate and fair across the agency.
    In closing, what unites everyone at TSA is our mission. We 
are acutely aware of why TSA was created. Our employees, some 
of whom are your neighbors and your constituents, choose public 
service to ensure that the horror of 9/11 never happens again 
within our country.
    Our workforce's commitment to serve and protect the 
traveling public is both genuine and admirable. I am proud to 
serve with TSA, and I am committed to supporting to make them 
better. I am committed to defending them when they are 
criticized for doing the right thing. I am also committed to 
holding them accountable when they fail to meet our standards.
    This is what our mission requires to be successful. Thank 
you, and I look forward to answering your questioned.
    [The statement of Mr. Halinski follows:]
                 Prepared Statement of John W. Halinski
                             August 1, 2012
    Good morning Chairman Rogers, Ranking Member Jackson Lee, and 
distinguished Members of the subcommittee. Thank you for the 
opportunity to testify today to address the challenges facing the 
Transportation Security Administration (TSA) workforce. To better 
understand those challenges, first and foremost, it is critical that we 
not only remember, but also appreciate why TSA was created and the 
enormous challenges facing the men and women of TSA every day as we 
carry out our security mission.
    Following the 9/11 terrorist attacks, TSA was stood up to secure 
our transportation systems. Since TSA's inception, there have been 
repeated unsuccessful attempts to attack our aviation system--the 
liquid explosives plot in 2006, the Christmas day underwear bombing 
attempt in 2009, the cargo explosive attempt in 2010, and the renewed 
threat of explosives concealed on the body this year. The threat to 
aviation is real, and we use intelligence, technology, and partnerships 
with law enforcement across the country and around the world to stay 
ahead of threats and ensure our workforce is prepared to address them.
    Our Transportation Security Officers (TSOs) serve on the front line 
of our layered security system and screen approximately 1.8 million 
people who travel from 450 airports each day. Both in the field and at 
headquarters, the TSA workforce is vigilant in ensuring the security of 
the passengers that travel through our Nation's vast transportation 
networks. TSA employs risk-based, intelligence-driven operations to 
prevent terrorist attacks and to reduce the vulnerability of the 
Nation's transportation system to terrorism. We continue to evolve our 
security approach by examining the procedures and technologies we use, 
how specific security procedures are carried out, and how screening is 
conducted.
    Our workforce is trained to carry out their responsibilities with 
professionalism and respect. TSA takes passengers' experiences 
seriously and has established multiple opportunities for travelers to 
provide feedback both during and after screening. Of the 600 million 
passengers screened on an annual basis, the TSA Contact Center receives 
approximately 750,000 contacts from the traveling public, of which less 
than 8 percent constitute complaints. Travelers with disabilities and 
medical conditions also have the option of reaching out to TSA for 
assistance before getting to the airport. These travelers may call the 
TSA Cares toll-free help-line number (1-855-787-2227) with questions 
about screening policies and procedures and what to expect at the 
security checkpoint. When a passenger with a disability or medical 
condition calls TSA Cares, a representative will provide assistance 
either with information about screening that is relevant to the 
passenger's specific disability or medical condition or the passenger 
may be referred to disability experts at TSA. This additional level of 
personal communication helps ensure that even those who do not travel 
often are aware of our screening policies before they arrive at the 
airport. Overall, most travelers have a positive experience at the 
airport.
                     evolution of the tsa workforce
    It is important to appreciate how our workforce has evolved since 
the creation of TSA. Following the events of 9/11, when Congress 
created TSA to lead the National effort to guard against terrorist 
attacks on our transportation systems, we have built a workforce to 
meet the operational needs of the aviation system and have transformed 
our front-line workforce to address evolving threats while mitigating 
risks. Prior to 2006 we had 45,000 full-time equivalent TSOs conducting 
security operations focused on screening people and carry-on bags at 
the checkpoint and checked baggage. Today, as discussed more fully 
below, the same functions are carried out by approximately 25 percent 
fewer personnel, while the passenger volume remains about the same as 
it was in 2006. These efficiencies have enabled us to invest in 
personnel performing more specialized screening functions, thereby 
enhancing our layered security system.
    With the support of Congress, TSA is moving away from a one-size-
fits-all security model and towards its goal of providing the most 
effective transportation security in the most efficient way possible. 
While a one-size-fits-all approach has been effective over the past 
decade, and was necessary after 9/11, two key enablers--technology and 
intelligence--are allowing TSA to move toward a risk-based security 
model.
    We created efficiencies in our operations and deployed technologies 
such as in-line baggage screening equipment that have allowed us to 
better utilize our workforce to perform other functions. Using 
intelligence as our guide, we have also strengthened security by adding 
security functions including travel and identification document 
verification, behavior detection officers, explosives experts, 
operations coordination center officers, and officers conducting 
security operations beyond the checkpoint--without increasing our FTE 
numbers.
    Ten years after the introduction of Federal screening at our 
Nation's domestic airports, the TSA workforce is one of the most 
diverse in the Federal Government. Our diversity spans every 
demographic--race, religion, ethnicity, gender--and cultural 
background. TSA draws its employees from the law enforcement community, 
private industry, and the military. In fact, our workforce exceeds the 
Civilian Labor Force (CLF) participation rates for the three largest 
minority groups (Hispanic, African American, and Asian American) and 
approximately 23 percent of our workforce are veterans of the United 
States Armed Forces. This diversity brings with it a diversity of 
experience and perspective. It is also a workforce of considerable on-
the-job experience, with the average TSO working at TSA nearly 6 years 
and more than half of our workforce with more than 5 years.
                        training for the future
    All aspects of our workforce regimen--hiring, promotion, retention, 
training, proactive compliance inspections, investigations and 
adjudications--are driven by adherence to the highest standards. TSA 
Administrator Pistole has made clear that integrity, professionalism, 
and hard work are bedrock principles and TSA is committed, not only to 
improving the effectiveness of security, but to doing so in the most 
cost-effective manner possible.
    We are currently engaged in a headquarters transformation of TSA 
that is designed to increase efficiencies and more prudently allocate 
resources. An important part of this effort is the creation of the 
Office of Training and Workforce Engagement (OTWE), which centralizes 
technical and leadership training as well as workforce engagement 
programs that were previously dispersed throughout TSA. Maintaining and 
enhancing the capabilities of our employees, and particularly our TSOs, 
is a priority. Both the nature of our work and advances in technology 
has required our workforce to adapt and develop new, specialized skills 
as threats continue to evolve.
    TSA will soon be providing Behavior Awareness Training (BAT) to the 
general TSO workforce. This training encourages all TSOs to use 
critical thinking skills and operational experience to better identify 
signs of anomalous behavior. Each officer has developed, through on-
the-job experience, an understanding of what is routine for the 
operations at their assigned airports. BAT will build on this 
experience and teach TSOs how to identify and react to a number of 
behavior indicators that they may observe and consider anomalous in 
their operating environment.
                   professional development programs
    In addition to technical training, on-going programs support the 
professional development of TSOs to continually improve their overall 
effectiveness and efficiency. For example, since last summer TSA has 
been delivering a tactical communications course for all managers, 
supervisors, and TSOs. The course, which expands upon the concepts and 
principles introduced during earlier engagement training, teaches 
officers how to effectively interact with passengers and co-workers. 
The course is designed to prepare TSOs for all types of human 
interactions by giving them tools and techniques to de-escalate 
difficult situations. At the checkpoint, these skills enable TSOs to 
more effectively complete the screening process.
    We are also expanding supervisory training as we implement the 
Department of Homeland Security Cornerstone program, a unified approach 
to the development of essential skills for new and seasoned TSA 
supervisors. This program includes instructor-led classroom training, 
mentoring, and on-going development opportunities.
    Over the next 18 months all of our Supervisory Transportation 
Security Officers (STSOs) will complete a course on the essentials of 
supervising screening operations. This training will build upon the 
basic leadership and technical skills of front-line supervisors, 
including effective communications, coaching, mentoring, and problem-
solving, and will enhance technical skills needed for effectively 
implementing security procedures. One of the key course objectives is 
to encourage STSOs to take ownership of their role in facilitating and 
contributing to the development of a responsible and professional 
workforce by establishing a high standard of performance, 
accountability, and integrity that their team members will strive to 
emulate.
    Workforce development is further enhanced by the TSA Associates 
Program, which continues to provide TSA's front-line workforce the 
opportunity to receive a TSA Certificate of Achievement in Homeland 
Security upon the completion of three core courses offered at community 
colleges across the country. More than 2,500 officers have enrolled 
since the program's inception. Today, the program is represented by 
employees in all 50 States with more than 70 airports and 60 community 
colleges participating in the program.
    It is not enough to train and engage our workforce--we must hold 
everyone accountable in the success of our mission. Administrator 
Pistole, shortly after coming to TSA, established the Office of 
Professional Responsibility (OPR) to ensure that allegations of 
misconduct are thoroughly investigated and that discipline is 
appropriate and fair across the agency. OPR ensures that our workforce 
is treated fairly by removing people that do not meet the high 
standards of integrity that our mission requires.
                               conclusion
    Today, as it has been since TSA's creation, the success of our 
mission depends upon our people. We are proud of the dedication and 
skill they bring to their work every day. In job satisfaction surveys, 
TSA employees consistently report a high level of commitment to the 
mission--that is why they are here. We appreciate your continued 
support as we strive to ensure that our workforce is well-prepared and 
given the proper tools to meet the challenges of securing our aviation 
transportation system. Thank you, Chairman Rogers, Ranking Member 
Jackson Lee, and Members of the subcommittee, for the opportunity to 
appear before you today. I look forward to answering your questions.

    Mr. Rogers. Thank you, Mr. Halinski.
    The Chairman now recognizes himself for 5 minutes of 
questions. Mr. Halinski, do you believe that the criticisms of 
TSA by many Americans are reasonable? Yes or no.
    Mr. Halinski. Sir, I would say that when I have looked at 
the statistics that we have, which is we screen approximately 
600 million passengers a year, and we have engagement who 
actively come in contact with about 750,000, about 8 percent, 
or less than 8 percent, are actually criticisms of TSA.
    When you look at the large amount of passengers that are 
going through, I think that that statistic speaks for itself. I 
will say that in any large organization--if you have an 
organization of 60,000 people--that is like a city. You are 
always going to have crime in a city, you are always going to 
have people in a city who don't do things that are proper or 
make mistakes.
    I am not saying we are any different from any other group 
of Americans. I am saying we are exactly like every other group 
of Americans. But we will hold them accountable when they do 
something wrong. I think we have demonstrated that recently 
with the creation of our OPR and trying to streamline the 
process when we identify problems in our organization.
    Mr. Rogers. So do you think the criticisms by the American 
people are reasonable?
    Mr. Halinski. Sir, I would say I haven't seen a lot of--
well, I would ask you, sir, if you could provide us what the 
criticisms are. I haven't seen a lot of statistics about 
criticisms. What I have seen----
    Mr. Rogers. Have you been in public lately?
    Mr. Halinski. Sir, I have been----
    Mr. Rogers. I hear them every time I go to Wal-Mart or 
church.
    Mr. Halinski. Yes, sir. Understand, sir. You know, I saw an 
interesting fact the other day on the media and the press that 
TSA gets. We have actually tracked, since 2009, negative 
reporting in the media of TSA, and found that there were almost 
13,000 reports in the media of TSA. About 47 percent of those 
were negative.
    Interesting fact that I find is that we looked at the 
number of blogs, and there are about 5,000 blogs out there. Of 
the 5,000 blogs, about 80 percent of those are negative towards 
TSA. One interesting piece I find, as a former Marine officer, 
is the fact that it is very easy to put a negative comment in a 
blog and not put your name on it.
    I think that is a point--you know, when we see criticism, 
we are going to address criticism, we are going to address 
vulnerabilities. I give you my word on that, sir.
    Mr. Rogers. Good. Well, you have talked about the Office of 
Professional Responsibility. Can you tell me more specifically 
what you intend to do now that you are in charge to more 
rapidly try to eliminate this problem to the extent humanly 
possible?
    Mr. Halinski. Yes, sir. I will tell you that when we see an 
issue with an employee, we are very committed to resolving it. 
I would like to take one moment, sir, to let you know that----
    Mr. Rogers. But I mean specifically, though, what do you 
intend to do differently than has been done before you took 
this position to ensure that speedy resolution?
    Mr. Halinski. Yes, sir. When we have personnel that have 
committed, let us say, stealing drugs or lack of security that 
we can immediately identify, those personnel are terminated. 
They are walked out the door.
    Mr. Rogers. Well, that is a new development. I am glad to 
hear that.
    Mr. Halinski. Yes, sir. No. 2, when we cannot conclusively 
identify bad behavior we conduct an investigation. We have 
created the Office of Professional Responsibility to ensure 
that there is consistency. An investigation is held. We have 
consistent review of the process.
    If appropriate, our employees are held accountable for 
misbehavior. I think it sends a strong signal. I would like to 
go back to your opening comment, sir, when your identified some 
issues in some of our airports. I view that as a positive 
thing, sir. We are policing our own.
    We are identifying problems, and we are conducting the 
appropriate action. In some cases, it is terminating employees 
who have misconduct. Now, I would also categorize----
    Mr. Rogers. By the way, let me ask. Is the new contract 
that you are about to sign going to in any way inhibit your 
ability to terminate employees for improper behavior?
    Mr. Halinski. Sir, at this point, because it is a very 
sensitive negotiation, I think it would be inappropriate for me 
to discuss that because it might have effects on that 
negotiation. I don't think it is appropriate to discuss that, 
sir. I am more than willing, after the negotiation is 
completed, to give you a full briefing on exactly what is 
entailed on that issue, sir.
    Mr. Rogers. Well, after the negotiations are complete, 
rather than a briefing I would rather do it in public. Because 
the public needs to know. You know, one of my concerns all 
along with TSA has been that when they do have somebody that, 
for example, makes serious errors in judgment, like people 
going through the magnetometer, the IT, they aren't terminated, 
they aren't really disciplined in a significant way.
    You know, there has been some pretty egregious actions that 
if they were in the private sector I think they would have been 
terminated. So I am concerned that there might be some effort 
to inhibit your ability to get rid of bad apples.
    Because the truth is, the overwhelming majority of TSA 
employees and screeners are good employees, good people trying 
to do a good job. But we can't let the whole organization be 
tainted by bad folks that you can't seem to get rid of. With 
that, my time is expired.
    I now recognize Mr. Davis for 5 minutes of questions.
    Mr. Davis. Thank you very much, Mr. Chairman. Mr. Halinski, 
welcome again.
    Let me ask you, in 2006 the DHS Office of the Inspector 
General reported that Covenant Aviation Security officials at 
San Francisco International Airport compromised OIG covert 
security testing. They did so by informing their contract 
screeners that testing was occurring.
    Do you believe that such misconduct by a company with the 
contract for screening services constitutes a breach of the 
public trust?
    Mr. Halinski. Sir, first let me say that I am not familiar 
with that particular case. I have not read that. I would say 
that whether it is a private company or a public company we 
identify an issue in our screening workforce. We try to take 
the appropriate action that is needed, sir.
    Mr. Davis. Well, let me ask you, what would happen if that 
was found to be the case today?
    Mr. Halinski. Sir, I believe that if we found something 
like that going on we would take the appropriate action. I 
believe that we would be discussing that with the company that 
is there, and we would take the appropriate action based on a 
review of the process. I can't exactly what that would be 
because I wouldn't have the facts, sir, until I was able to sit 
across the table from them and discuss it.
    Mr. Davis. Just a moment ago, you and Chairman Rogers had 
some dialogue relative to the newly-established Office of 
Professional Responsibility, which was created to ensure 
timely, fair, and consistent discipline throughout the agency. 
However, it is my understanding that most decisions on 
discipline are still made at the local level by Federal 
security directors.
    If that is the case, then how will the Office of 
Professional Responsibility be able to ensure fair and 
consistent discipline and that it is being applied when it is 
not the entity making such decisions in what appear to be a 
majority of the cases?
    Mr. Halinski. Sir, I think it depends, No. 1, on the case. 
The office of OPR will review all cases. There is a review 
panel that consists of two individuals from the office of OPR, 
as well as an FSD. They do a paper review of the case. Once 
again, I would like to say, sir, we have 60,000 employees.
    Our Office of Professional Responsibility is a very small 
organization. We are concentrating--it is a new organization. 
We believe it is the right approach. We are trying to be 
consistent across the board. There is a review process that 
does occur, sir.
    Mr. Davis. Well let me ask you, that being the case, how 
will the Office of Professional Responsibility coordinate with 
TSOs' exclusive representative, the American Federation of 
Government Employees, to ensure that the terms of the 
arbitration agreement between the parties are not violated?
    Mr. Halinski. Sir, I would like to say that at this point 
we are in a very sensitive negotiation on collective 
bargaining. I think anything I say could be taken out of 
context, and I don't want to jeopardize that particular 
negotiation at this point. But we would love to do a public 
forum, as Chairman Rogers said, on all aspects of the agreement 
with the union, sir.
    Mr. Davis. Thank you very much.
    I yield back, Mr. Chairman.
    Mr. Rogers. I thank the gentleman.
    The Chairman now recognizes the gentleman from California, 
Mr. Lungren, for 5 minutes.
    Mr. Lungren. Thank you very much.
    First of all, Mr. Halinski, let me thank you for your 
service in the Marine Corps, and I appreciate that. I presume, 
I am confident, that the dedication you showed as a Marine is 
the same dedication you are showing us today, helping us with 
challenges.
    I just want to put on the record, I think we are safer 
today as a result of the work that has been done by DHS and by 
TSA. I think I am safer when I go, and this weekend I am going 
with my granddaughter on a flight out home. When they turn 5, 
they come with granddad out to visit us in California.
    I feel more confident and safer today than I did in the 
days right after 9/11. So I appreciate that work, and I 
appreciate the work of the TSA employees. I think the full-body 
scanners may be one way of reducing some of the complaints you 
have, as someone who has had many, many body searches from TSA, 
it is not a pleasant experience and there are many ways that I 
think can lead to complaints.
    I think the rapidity with which people can go through the 
body scanners, and the lack of having full body searches, is an 
improvement. I am a supporter, and have been, of the Screening 
Partnership Program. I was pleased, in the announcement this 
last week, that the major airport in my district, Sacramento 
International Airport--which has been striving for some time to 
get permission from TSA to pursue that if that is appropriate--
the announcement that they can pursue that has gone forward.
    Is there any evidence whatsoever that there is any 
difference in terms of the level of complaints that you have 
from those airports that have TSA employees versus those that 
have Screening Partnership Program employees?
    Mr. Halinski. Sir, we would say that our analysis between 
the Federalized workforce and the SPP has found that from an 
operational standpoint there are basically no differences. I 
would say that our analysis has also indicated there is a 
slightly higher cost.
    Mr. Lungren. No, I understand. I don't want to get into 
that because we have had strong disagreements with your 
Department on that. Because originally, you came up and your 
folks forgot to put the additional costs of pension and so 
forth in there, and we brought it down from 13 percent down to 
3 percent. So I don't want to get into that question because we 
have gone on and on about that.
    I don't think there is any problem with examining it, but I 
have had some real problems with the numbers I have gotten from 
TSA over that time.
    Let me ask you this: How do you recruit screeners? What are 
the key qualifications that TSA looks for? Have you changed it 
at all in light of some of the complaints we have had about 
some of those who have been on job in the past?
    Mr. Halinski. Sir, I think we actually have a very good 
process to recruit screeners. Let me start, if you will allow 
me to walk through that process. We recruit our personnel 
through a variety of different processes. What we are looking 
for, because I think it is a key to good security, is we are 
looking for a very diverse workforce.
    I am not talking about race, I am not talking about age. I 
am talking a combination of many other factors; experience, 
several things. Because it is very, very important. Because if 
you are going to be successful in security you can't look 
through one lens. You have to be able to look through multiple 
lenses.
    When we do our recruiting, our personnel come in and they 
are vetted against a criminal database, they are vetted against 
a terrorist database, and they are vetted against their 
financial records. Once they come into TSA, sir, they are given 
a fairly extensive training regimen.
    They have to pass a series of tests; knowledge on 
screening, knowledge on our standard operating procedures. Then 
they are given an extensive period of on-the-job training. As 
they progress, they are given recurrent training on a continual 
basis, sir.
    Mr. Lungren. Is there a period of probation?
    Mr. Halinski. I believe it is--I will have to get back with 
you on that, sir. I don't want to give you the wrong answer.
    Mr. Lungren. Okay. What about your recruitment of veterans?
    Mr. Halinski. Yes, sir. We actively recruit veterans. As I 
said, 25 percent of our workforce are veterans. That is----
    Mr. Lungren. So how do you recruit them?
    Mr. Halinski. How do we recruit them, sir? We use a lot of 
the internet, sir, to be quite frank. We have programs where we 
look at the Transition Assistance Program with DOD. I think 
that is a very good program. I myself went through that 
program, and it does identify opportunities for veterans.
    Mr. Lungren. How many criminal cases do you have on-going?
    Mr. Halinski. I will have to get back with you, sir. I am 
not sure exactly the number.
    Mr. Lungren. If you could, and if you could give us the 
type of offenses I would appreciate that.
    Thank you.
    Mr. Rogers. I thank the gentleman.
    The Chairman now recognizes my friend and colleague from, 
what is that, Minnesota?
    Mr. Cravaack. Minnesota.
    Mr. Rogers. Mr. Cravaack, for 5 minutes.
    Mr. Cravaack. Thank you, Mr. Chairman.
    Welcome aboard, sir.
    Mr. Halinski. Thank you, sir.
    Mr. Cravaack. Thank you for your dedication and service. 
You definitely stepped in the breach, so thank you for doing 
that. But I couldn't think of a better guy than a Marine, so 
thank you very much.
    Mr. Halinski. Appreciate it, sir.
    Mr. Cravaack. You come from a very professional 
organization, and I hope that what you have learned in the 
Corps will definitely be transferred down into the troops. I 
think that being a Marine Corps will definitely help you along 
that way. So I look forward to that, and seeing a 
transformation in the TSA.
    Like the Chairman said, the majority--I remember the old 
saying that 95 percent of your workforce is good, but 95 
percent of your work is spent on 5 percent of your people. So I 
think that is probably what you are experiencing right now, as 
well.
    I also understand and appreciate your sensitivity regarding 
union negotiations. As a 17-year union member, going through a 
negotiation process I understand your concern; saying something 
that may be taken out of context and affect negotiations. So I 
totally get that and understand it.
    One of the things, though, when I went through 
negotiations--one of the--the strong proponents that I have 
always been said is that you never negotiate safety. That is 
one thing that I hope you will take to bear when you do go to 
the table and negotiate with the unions that safety is not a 
negotiable item.
    It is either one way or the other and, hopefully, we will 
always lean on the side of safety. So with that said, in your 
testimony you mentioned training for TSOs to effectively 
interact with passengers and de-escalate difficult situations. 
One of the things that--one of the bills that I had was a TSA 
bill in regard to making sure that our troops, our warriors, 
who come back from--from overseas, when they are in uniform, 
with orders and a military ID, that they get expedited 
screening.
    Not no screening, but expedited screening. Do you have 
special training for TSOs to expedite the screening for members 
of the armed services?
    Mr. Halinski. Yes, sir, we do. Whenever we start a new 
program or we initiate a program, what we have is extensive 
training of our screeners--in this case, for military 
personnel--to recognize a couple of different things. We really 
think that the partnership we have established with DOD is very 
good on a number of levels.
    Not just returning veterans, but also wounded warriors and 
wounded warriors' families. I think we have established a very, 
very good program. It has been great to work with DOD in this 
capacity, having come from DOD. We are very committed to 
supporting them and carrying that out, sir.
    Mr. Cravaack. Okay. Because the reason why I asked the 
question, I have heard several stories from service members who 
were forced to remove their boots, service blouse--and when 
they were traveling in uniform and on orders. I take it 
personally. Just recently, returning back to Minnesota, I saw a 
young major coming back from Afghanistan.
    I was all excited because of the bill that we had was able 
to press forward. I said, ``Were you able to get through 
expedited screening?'' He said, ``No, what is that?'' It wasn't 
even offered to him. He was in full military uniform, you know, 
with about three sea bags, coming back from Afghanistan.
    So I was very, very disappointed that this bill that we 
fought so hard for is not being deployed. We just had a hearing 
about that just a couple weeks ago so anything you, especially 
as a veteran yourself, can do to move this along. Quite 
frankly, you are in violation of the bill already because it 
was supposed to be fully executed.
    So anything that you can do, as a Marine, and also the head 
I would appreciate you expediting that. Can you tell me if any 
steps have been taken since then to change any training for 
TSOs to account for risk-based security screening for members 
of the armed services act? Are people aware of this act that is 
in place?
    Are they aware, when they see a service member, in uniform, 
that they are to offer expedited screening to them?
    Mr. Halinski. Yes, sir. As I said, sir, we are very, very 
committed to working with the DOD. I think we have established 
a good partnership with DOD. We are in, as you know, sir, 450 
some-odd airports and we are doing our best to ensure that we 
get the word out to our workforce on DOD.
    We look at the military as one of our models for the risk-
based security program in PreCheck. As we continue to move 
forward with that we will continue to conduct ourselves 
according to that, sir.
    Mr. Cravaack. Okay, sir. You do understand it is the law, 
signed by the President.
    Mr. Halinski. Sir, I absolutely understand the law sir.
    Mr. Cravaack. Roger that.
    With that, I will yield back.
    Mr. Rogers. I thank the gentleman.
    The Chairman now recognizes himself for a second round of 
questions. To make sure that the audience both here and on C-
Span understand, you know, some of the instances I am concerned 
about, I want to describe a few of them. Last year, at a 
Honolulu airport, 45 TSA employees were fired or suspended, 
including the FSD, the Federal security director, for knowingly 
failing to screen checked bags and explosives.
    Also last year, in Jackson, Mississippi, a TSA assistant 
Federal security director was arrested for stabbing a co-worker 
to death in her apartment. The accused individual was 
previously a screening supervisor at Chicago O'Hare Airport. 
This year, in Newark Airport, screening supervisors were fired 
for being caught sleeping in front of monitors used to detect 
explosives and other threats and checked bags.
    This year also, at Fort Myers Airport, five TSA employees 
were fired and 38 others, including supervisors and the Federal 
security director, were suspended for failing to conduct random 
screenings. This year at Dulles Airport, a screening supervisor 
was arrested for allegedly running a prostitution ring out of a 
hotel in Maryland.
    Given these examples, can you tell me your thoughts about 
TSA's ability to oversee these supervisors who conduct the 
screening?
    Mr. Halinski. Yes, sir. I would like to answer that in a 
couple ways, sir. First, with the incidents in Honolulu, 
Newark, and Fort Myers, these are incidents where I believe 
that the measures that we have taken in place are starting to 
show fruition, sir. Quite frankly, I say that because we are 
policing our own.
    We have identified an issue, we conducted a thorough 
investigation, and the parties that were involved have been 
terminated from TSA, as they should have been, because they 
were not in accordance with the way we operate. In the case of 
Jackson and Dulles, sir, those are criminal cases. I believe 
that was occurring when these individuals were off-duty, and 
they have been handled appropriately.
    I believe both individuals have been arrested and 
terminated from TSA. I would tell you, on supervisory training, 
sir, one of the things that we have initiated in our 
transformation in the last year is the creation of the Office 
of Training and Workforce Engagement. Why is that?
    At one point, we had training in several different areas. 
We have now consolidated training and become much more 
efficient. Part of the training that we are doing right now at 
FLETC in Georgia is what we call--and I want to get it correct, 
sir, because I screwed up a couple of hearings ago on an 
acronym--ESSO training, which is the Essentials of Supervising 
Screening Operations.
    This particular training is new, and it specifically 
addresses supervisory screening techniques and operation; how 
they interact with the public, our culture of accountability, 
our culture of integrity. We are trying to get the entire 
screening supervisor workforce trained in a very short period 
of time to that standard at FLETC, sir.
    Mr. Rogers. What period of time do you think that will be?
    Mr. Halinski. We are looking at about 18 months, sir.
    Mr. Rogers. That every supervisor will go through that 
FLETC training?
    Mr. Halinski. Absolutely, sir. We are putting a push on it, 
and we believe the creation of this Office of Training and 
Workforce Engagement is a major step to refocusing our efforts 
to because an efficient counterterrorism organization, where we 
hold our people accountable, and increase integrity, sir.
    Mr. Rogers. Well, I am glad to hear that you are talking 
about 18 months. Because last I heard, you all were looking at 
a much longer time line. That is a great improvement. In 
Americans' minds, TSA represents everything wrong about the 
Federal Government; bloated in bureaucracy.
    If you would put the chart up for me, and help me navigate 
this. When you look at the bottom right-hand side of the screen 
there is a little green box. That is when somebody is 
identified as having done something criminal or inappropriate. 
Kind of walk me through the process of what happens after that 
person--let us say he is caught stealing something in a bag.
    Walk me through--where do they go? Because this seems 
confusing to me.
    Mr. Halinski. Well, sir, to be quite honest with you, I 
have never seen that slide. It seems a little bit confusing to 
me. But let me simplify the process, sir. We have a couple of 
different processes. If an individual in TSA is identified as 
committing an act of theft, drugs--and we do test for drugs--or 
a lack of screening, what we do immediately, if we can prove it 
immediately, we terminate the employee.
    Mr. Rogers. Do you believe that will be in any way 
inhibited by your new contract?
    Mr. Halinski. Sir, once again I am going to go back to what 
I have said before, is that I feel that if I discuss any aspect 
of the collective bargaining agreement at this critical time I 
could jeopardize that negotiation. I would prefer to give you a 
full briefing in an open hearing like this after it is 
concluded, sir.
    Mr. Rogers. Great. Well I can just tell you, if you are not 
able to fire people for stealing under that new contract we are 
going to have a problem.
    Mr. Halinski. Sir, the policy we have is, if we catch an 
individual who is stealing, involved in drugs, or committing 
acts of lack of security is to terminate that employee 
immediately. If we cannot prove immediately, what we do is we 
conduct an investigation. It either goes to the DHSIG, or it is 
internal in our office of investigations.
    If the allegation turns out to be true it is taken to the 
Office of Professional Responsibility. They have 30 days to 
conduct a consistent approach to dealing out appropriate 
action. That compacts the time frame, much quicker. We believe 
this process is streamlined and more effective and, more 
importantly, it is consistent across the board. It is not 
effect----
    Mr. Rogers. So that Office of Professional Responsibility, 
at 30 days can they terminate or suspend, or take whatever 
action is necessary? There is no other step beyond that?
    Mr. Halinski. There is no other step except we will do an 
automatic review, sir, of that process. So there will be a 
letter, there will be a 14-day to 20-some-odd-day period where 
the person has the ability to respond. Then there will be a 
final adjudication. We are trying to streamline it.
    We do not tolerate, in our agency, misbehavior, sir. I 
would like to say again, we have 60,000 employees, sir. They 
are good employees. If I may make one comment, sir, you know we 
see a lot about surveys with TSA employees and they have said 
this or they have said that. There is one striking piece that 
every survey we have stands out among our employees, and that 
is a commitment to our mission.
    They truly believe--because they are not the best-paid 
folks out there in the world, sir--that they are there to 
protect the traveling public. That is their mission, sir, and 
we take it very seriously. We are not going to tolerate--I am 
going to sit here right now and tell you I am not going to 
tolerate--misbehavior or criminal conduct.
    We will take appropriate action, I give you my word.
    Mr. Rogers. That is good enough for me.
    The Chairman now recognizes Mr. Davis for his next round of 
questions.
    Mr. Davis. Thank you very much, Mr. Chairman.
    Thank you, Mr. Halinski. Am I correct to understand that 
discipline is not one of the terms of the contract?
    Mr. Halinski. Sir, you know, I was in the Marine Corps for 
25 years. We used to say name, rank, and serial number. I am 
going to go back to what I have said previously, sir. That I 
believe that if I talk about any piece of this negotiation it 
could jeopardize it. I understand all of your concerns on this, 
and I will gladly come back and talk to you about collective 
bargaining, or Mr. Pistole will, in the future.
    We would love to do that, but I just feel that we could 
jeopardize a sensitive negotiation at this point, sir.
    Mr. Davis. Well, let me ask you, what role does the newly-
established Office of Training and Workforce Engagement play in 
determining whether or not there is a need for discipline or a 
need for additional training? How do you separate the----
    Mr. Halinski. Yes, sir. So we have created two new 
organizations within TSA. We have created the Office of 
Training and Workforce Engagement to reduce redundant training 
throughout the entire organization and centralize it to become 
much more effective. We are utilizing the facilities at FLETC, 
which we believe is demonstrating a cost efficiency.
    They are focused on training and messaging internally to 
our workforce. When I say messaging, it is that messaging of 
accountability and integrity. The Office of Professional 
Responsibility, on the other hand, is there to work with the 
leadership of TSA and provide consistency when we talk about 
dealing in areas of discipline or misbehavior within the 
organization.
    Mr. Davis. Le me ask, earlier this summer the House took 
several votes on amendments to the homeland security 
appropriation bills. Several of those amendments focused on 
policies, and specifically targeted the screener workforce. One 
in particular would have banned TSOs from wearing badges, and 
would have stripped the officer title from screeners.
    I am trying to understand how would prohibiting screeners 
from wearing badges and stripping them of their title enhanced 
aviation security, if you have any----
    Mr. Halinski. Sir, I really don't have an opinion on that. 
It never came to fruition. I don't have an opinion, and I have 
a strong belief in our screening workforce. I believe when you 
have 60,000 people, one-quarter of which are veterans, that are 
looking annually at 6 million people, and they have a very 
short period of time to do it and to make a decision go or no-
go, it is an enormous accomplishment for these people.
    I truly believe that. They are out there defending the 
public every day. You hear stories, you see blogs. There are 
misconceptions out there. I would say we are no more different 
than any other organization in this country. We are made up of 
Americans who are committed to protecting this country. That is 
a thing I truly believe in.
    I want to work with the organization to make sure we gain 
that reputation in the future, sir.
    Mr. Davis. In your new role as deputy administrator, what 
do you see as the biggest challenge facing the screener 
workforce?
    Mr. Halinski. I think there are a couple of challenges, 
sir. One of the things that we would like to work on, quite 
frankly, is the perception of our screening workforce. We are 
looking at that. How we better message who we are and what we 
do. Because I believe it is a good story.
    So we want to improve the efficiency. I think that we are 
doing that through training, through education. We want to 
ensure that we are supporting the workforce. I found, in 
previous positions of leadership, when you talk about 
accomplishing the mission, which I believe we do, the second 
piece is taking care of your personnel.
    You do that through training, you do it through defending 
them, and at the same time you do through holding them 
accountable to a standard. That is what I plan to do, sir.
    Mr. Davis. Well, thank you very much. I would certainly say 
that you demonstrate a tremendous level of training as well as 
a tremendous level of discipline. I think you are going to 
manage this quite well.
    Thank you very much, and I have no further questions.
    Mr. Rogers. Thank you, Mr. Davis.
    The Chairman now recognizes Mr. Cravaack for a second round 
of questions.
    Mr. Cravaack. Thank you, Mr. Chairman.
    You are a breath of fresh air, sir. Thank you very much. I 
appreciate you stepping into the breach, and I truly think that 
you are going to bring pride and professionalism back to this 
organization by holding people accountable for what they do in 
their actions.
    So what I think you are going to be doing is taking just 
exactly those great people that do work for the TSA, you are 
going to be enforcing them, and making sure that they are 
recognized for who they are and what they do, and bring a lot 
of pride back to this organization that we took so much pride 
in right after 9/11 that brought this organization forward.
    So I think you are exactly what they need right now. So I 
appreciate that. Just a little bit of asides. In your 
testimony, you say that prior to 2006 we had about 45,000 full-
time equivalent TSOs. That the same functions were carried out 
by approximately 25 percent fewer personnel, while the 
passenger volume remains about the same as it was back in 2006.
    Earlier information provided by the TSA in the budget 
justifications would seem to indicate that the TSA is not 
operating with 25 percent fewer TSOs today, necessitating a 
Congressional hard cap on the number of screeners at 46,000. 
Can you comment on that discrepancy?
    Mr. Halinski. Absolutely, sir. What I would like to explain 
is, when the written statement talked about 45,000 with a 25 
percent less doing actual screening operations, what we have 
done--and it is based on the comments by the 9/11 Commission--
we have looked at trying to increase our security capability 
through a layered effect.
    So we have taken those personnel, and created what we 
consider to be an exceptionally good, layered security 
approach, including BDOs--behavior detection officers--our 
transportation security explosive specialists, training 
officers. We are not going to exceed that number. We know our 
limitations, sir, and we are going to stand by it.
    But we believe that we have been more effective in 
increasing that layered defensive effect by utilizing, and not 
only that but increasing, the ability of our people to develop 
within the organization. To jump from a screener to a behavior 
detection officer, to look at other areas.
    So it is a two-pronged approach, sir. No. 1, we believe we 
are more effective because we are carrying out the tenets of 
the 9/11 report, which was a layered security effect. No. 2, we 
are increasing opportunities for our workforce to make them 
more of a professional workforce by giving them opportunities 
to do other things.
    Mr. Cravaack. You brought up an interesting point, BDOs. 
Are you finding them to be effective?
    Mr. Halinski. Yes, sir, we are. Sir, I would like to point 
to one example that actually happened yesterday, where two of 
our BDOs in Miami identified a kidnapping victim, called law 
enforcement. The person that was kidnapped was identified, and 
the police came in.
    She--how am I going to say this?--we stopped a kidnapping, 
sir, basically through the quick thinking and the abilities of 
our BDO. I believe the program is effective. I believe it is 
essential, also, for the PreCheck risk-based security program. 
Because if you have a security program, you have to look at it 
from many aspects.
    You can't have one piece of technology that fits all. You 
have to incorporate technology as well as the human factor. 
BDOs do that, sir.
    Mr. Cravaack. All right. I have my questions about BDOs, 
but after speaking with you, you think that they are an 
effective program. I will go with you and support you on that. 
Hopefully, we won't have another round questioning BDOs again 
in the future. So I appreciate that.
    Regarding software updates, in your testimony you talked 
about a misconduct tracking system developed by Lockheed 
Martin, and your written testimony being delayed until April, 
2012 to sometime in 2013. What is the operational result of not 
being able to observe the patterns and trends of misconduct 
with this software?
    Mr. Halinski. Sir, what we are trying to do is, it is one 
of those things with technology. We would like to get there 
tomorrow, if we could. We are working on that. What it means 
is, we are doing it the old, and I will say Marine-style, sir--
we are fact-figuring it and trying to do it. It just takes a 
little bit more time.
    Mr. Cravaack. Fair enough. All right, good luck with that. 
Thank you for stepping up and taking on this position, and I 
look forward to working with you in the future.
    Mr. Halinski. Yes, sir.
    Mr. Cravaack. With that, I will yield back.
    Mr. Rogers. I thank the gentleman.
    The Chairman now recognizes himself for another few 
questions. I want to pick back up where we left off in talking 
about what happens when you determine somebody is guilty of 
misconduct, and the process. What you described was pretty 
clear to me.
    I would like to understand, the TSA's Office of Inspection. 
Is that the first place it goes to determine if there was a 
problem?
    Mr. Halinski. Yes, sir. If we determine that there is an 
issue we will turn it over to our Office of Inspection.
    Mr. Rogers. Right. Then they are the ones that send it on 
to Professional Responsibility if they find that there is, in 
fact, a problem.
    Mr. Halinski. Well, what they do, sir, is they will ask the 
Department IG if they want to take the case or not. The 
Department IG will say yes or no, and if it is no then we will 
conduct the investigation. If it is yes----
    Mr. Rogers. In OPR.
    Mr. Halinski. No, it is the Department of Homeland Security 
inspector general, sir.
    Mr. Rogers. Sir, no. My point is, if they decide they don't 
want to pursue it, then you are saying OPR will pursue it?
    Mr. Halinski. No, sir. The Department inspector general can 
accept that case, or not.
    Mr. Rogers. Right.
    Mr. Halinski. If they determine that they are not going to 
accept it, then the Office of Investigation will conduct the 
investigation. The results of that investigation are then 
turned over to the Office of Professional Responsibility to 
make a decision on whether there was an issue or not, and what 
the discipline should be, accordingly, sir.
    Mr. Rogers. What role, if any, does the Office of Human 
Capital have in this process?
    Mr. Halinski. Sir, the Office of Human Capital is akin to 
an advisory type organization. Because one of the concerns we 
also have is the equal opportunity process and the MSPB 
process, which--I know you are going to get me on this acronym, 
sir--is the process where an employee can complain that they 
are being treated unfairly.
    Our Office of Human Capital is there to work with that 
employee. They are also there as an advisor to OPR or to the 
Office of Investigation to what the rules are for Federal 
Government employees.
    Mr. Rogers. Okay.
    Mr. Halinski. Strictly advisory, sir.
    Mr. Rogers. Excellent. Well, as you have already heard, we 
are pleased to see you in this position. As you are probably 
aware, I have been on the Armed Services Committee for 10 
years. I have been urging DHS and various folks in management 
to do more to replicate what they do in DOD because it is the 
largest of our Federal entities. They kind of figured the 
things out. That a lot of new agencies come along.
    You are the third-largest Federal agency so I think a lot 
of the learning problems they have already experienced. Given 
that you are a 25-year Marine veteran, I think you realize that 
they figured it out, too. So I would applaud you for your 
service, and I fully expect that you will be applying those 
lessons learned in the military towards your job.
    While we have got a long way to go to remedy this, I think 
you are the right guy to do it. So I wish you well.
    I recognize Mr. Davis for any more questions he may have.
    Mr. Davis. Thank you very much, Mr. Chairman. I do have 
one.
    Mr. Halinski, in the past we have expressed concerns 
regarding diversity in the agency. Unfortunately, we continue 
to be disappointed as we look at numbers that we receive from 
headquarters on this matter. It is my understanding that in 
your previous role as lead of the Office of Global Strategies 
you maintained a highly diverse office, including women and 
minorities.
    Could you share with us your thoughts on a strategic plan, 
if you have one, to make sure that the headquarter team 
represents that kind of diversity that you have experienced in 
other opportunities?
    Mr. Halinski. Sir, let me go back to what I said earlier 
about diversify. Because I believe that it is vital for 
security operations to have an extremely diverse workforce. You 
can't look at a security situation through one lens. I think 
the key to this is active recruiting.
    I believe that the plan that we have in place is addressing 
that. There is always room for improvement across the board in 
any organization, and we look to address that in the future, 
sir.
    Mr. Davis. Thank you very much. I think that you are 
absolutely correct in your assertions about that particular 
issue, and we look forward to watching the progress.
    Thank you very much, Mr. Chairman. I have no further 
questions.
    Mr. Rogers. I thank the gentleman. I think that, in sum, 
what this hearing has demonstrated is that TSA does, in fact, 
acknowledge it has got a little bit of an image problem and, 
particularly, a problem with some of its employees. But I think 
also the fact that they put you in this position, and the 
things that you have outlined for us today, are good evidence 
that you intend to take it seriously and remedy it.
    I applaud you all for that. I would remind Mr. Halinski 
that some Members may have questions that couldn't be here, and 
we will hold the record open for 10 days. So if you are offered 
any questions, I would ask you to respond to those in writing 
within 10 days.
    With that, this hearing is adjourned.
    [Whereupon, at 10:58 a.m., the subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              

 Questions From Ranking Member Bennie G. Thompson for John W. Halinski
    Question 1a. In the lead-up to the hearing we requested that 
companies with contracts for screening services at airports provide us 
their disciplinary policies. Unfortunately, we were informed that the 
information was proprietary and would not be shared.
    Does TSA have copies of the disciplinary policies of companies that 
contract for screening operations?
    Answer. Response was not received at the time of publication.
    Question 1b. Who, beyond the companies themselves, have copies of 
these policies?
    Answer. Response was not received at the time of publication.
    Question 2a. TSA has been engaged in the process of re-organizing 
its headquarters since last fall.
    Where does the re-organization stand today?
    Answer. Response was not received at the time of publication.
    Question 2b. What efficiencies or cost savings that will result 
from the re-organization has TSA identified?
    Answer. Response was not received at the time of publication.
    Question 3. TSA has recently approved the applications of three 
airports seeking to utilize contract screeners, rather than Federal TSA 
screeners.
    What authority does TSA have to discipline a screener who engages 
in misconduct or fails to follow standard operating procedures when the 
screener is employed by a contractor?
    Answer. Response was not received at the time of publication.
 Questions From Ranking Member Sheila Jackson Lee for John W. Halinski
    Question 1. Last year we received notification that TSA was 
underway with a major reorganization effort, which was withheld from 
us--the authorizing committee. Today marks nearly a year since we were 
made aware of this reorganization. I, along with the Ranking Member of 
the full committee have written to the administrator requesting 
additional information on this matter.
    Under what statutory authority is TSA able to demote staff at TSA 
and/or reassign new job descriptions under the guise of reorganization?
    Answer. Response was not received at the time of publication.
    Question 2a. The contractor TSA hired to conduct the optimization 
study that is fueling this reorganization indicated in its study that 
TSA has repeatedly embarked on efforts to improve its performance at 
headquarters, however, it is also noted that TSA fails to have the 
discipline to sustain changes that improve the organization.
    What makes this reorganization effort different?
    Answer. Response was not received at the time of publication.
    Question 2b. How does TSA anticipate the new structure with the 
Office of Professional Responsibility and the Office of Workforce 
Engagement impact TSO morale, training, and efforts to address 
misconduct?
    Answer. Response was not received at the time of publication.

                                 <all>

</pre></body></html>
